SIGAR                                     Special Inspector General for
                                           Afghanistan Reconstruction




                                                  SIGAR 14-82 Inspection Report




       Gereshk Cold and Dry Storage Facility: Quality of
       Construction Appears To Be Good, but the
       Facility Has Not Been Used to Date




                                                                    JULY

                                                               2014
SIGAR 14-82-IP/Gereshk Storage Facility
July 16, 2014


Mr. Michael D. Lumpkin
Acting Under Secretary of Defense for Policy

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
 Commander, International Security Assistance Force

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers,
 U.S. Army Corps of Engineers

This report discusses the results of SIGAR’s inspection of the Gereshk Cold and Dry Storage Facility
in Helmand province, Afghanistan—a $2.89 million facility funded by the Department of Defense’s
Task Force for Business and Stability Operations (TFBSO). SIGAR was unable to make a site visit to
this facility because of security concerns, but was able to review an extensive collection of contract
and management documentation, including photos and site visit reports. Based on SIGAR’s review
of this information, the Gereshk Cold and Dry Storage Facility appears to be well constructed.
However, the completed facility has never been used. The Afghan Ministry of Commerce and
Industry (MoCI) continues to look for private sector investors to take over the facility. SIGAR
recommends that as a lesson learned for successfully commercializing future TFBSO investment
projects, it should ensure that before approving future investment projects of any kind, there are
willing investor(s) capable of assuming ownership of and responsibility for maintaining constructed
facilities; or, in the absence of investors, that the MoCI is willing and able to assume those
responsibilities itself.

We provided a copy of the draft report to TFBSO, U.S. Central Command, U.S. Army Corps of
Engineers, and U.S. Forces-Afghanistan for their review and comment. TFBSO partially concurred
with our recommendation and provided written comments that are reproduced in appendix II. U.S.
Central Command responded that the report was accurate and that it had no comments. U.S. Army
Corps of Engineers and U.S. Forces-Afghanistan did not provide comments.

SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended; the
Inspector General Act of 1978, as amended; and in accordance with the Quality Standards for
Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and
Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
In 2010, the Task Force for Business and Stability Operations (TFBSO) approved the reconstruction of a
bombed cotton factory site in Helmand province owned by the Afghan Ministry of Commerce and Industry
(MoCI).1 At this site, TFBSO decided to build the $2.89 million Gereshk Cold and Dry Storage Facility with the
intention of it serving as a hub for agricultural development within the province. The project would construct
separate cold and dry storage warehouses to store local produce, provide a location for sorting and packaging
of produce, and serve as a transit
point for trucks. Figure 1 shows the        Figure 1 - Location of the Gereshk Cold and Dry Storage Facility on
location of Gereshk on the main             the Afghan Ring Road
highway, the Afghan Ring Road, with
access to nearby Kandahar and
points east, west and north.
Since TFBSO was originally
scheduled to cease operations on
September 30, 2011,2 TFBSO gave
the U.S. Army Corps of Engineers
(USACE) responsibility for awarding
the construction contract and
transferred project oversight
responsibility to the International
Security Assistance Force’s Regional
Command-Southwest (RC-SW).3 On
September 7, 2011, USACE awarded
an Afghan company the contract to
design, build, and equip the facility.
TFBSO’s initial plans called for two
cold storage warehouses with a
contract option for two dry storage
warehouses. However, due to limited
funding, the final design was            Source: SIGAR analysis
changed to one cold storage and one
dry storage warehouse. The contract also included demolishing two structures; making road improvements;
providing on-site prime power generation, an electrical distribution system, and a new water well; and the
removal of mines and unexploded ordnances from the site.
Construction was completed in May 2013, and USACE approved the completed construction. The facility was
transferred to the Afghan government in September 2013. The completed facility provides approximately
10,000 square feet of cold storage and 13,000 square feet of dry storage.
For this inspection, we assessed whether (1) construction was completed in accordance with contract
requirements and applicable construction standards, and (2) the facility was being used as intended and
maintained. Appendix I contains a more detailed discussion of our scope and methodology.


1 TFBSO was formed by the U.S. Department of Defense in 2006 and reports to the Under Secretary of Defense for Policy.
Its mission is to promote economic opportunities by, among other things, encouraging investment in Afghanistan by U.S.
and international businesses.
2The decision to cease TFBSO operations on September 30, 2011, was later reversed. The Secretary of Defense issued a
Memorandum for the continuation of TFBSO through 2014.
3 RC-SW is one of six regional commands in Afghanistan under the International Security Assistance Force, a coalition force
organized by the North Atlantic Treaty Organization. RC-SW’s mission is to conduct counterinsurgency operations to protect
the Afghan people, develop Afghan National Security Forces capabilities, and in conjunction with the Helmand Provincial
Reconstruction Team and Afghan government, support improved governance and economic development.



SIGAR 14-82-IP/Gereshk Storage Facility                                                                             Page 1
GERESHK FACILITY APPEARS TO BE WELL CONSTRUCTED, ALTHOUGH A
SIGNIFICANT DELAY OCCURRED IN COMPLETING THE PROJECT

We were not able to conduct an on-site inspection due to security concerns in the Gereshk area, and,
therefore, we are unable to determine whether the project fully met contract requirements. Our inspectors
attempted to visit the Gereshk storage facility on two occasions—January and March 2014. Although the site is
within one of the “oversight bubbles”4 that allows civilian visits when security conditions are deemed to be
safe, both visit requests were denied. International Security Assistance Force and RC-SW officials told us that
the requests were denied because that area had high insurgent activity and was unsafe to visit.
However, based on interviews with agency officials and a thorough review of contract and management
documentation, including photos and site visit reports, the Gereshk Cold and Dry Storage Facility appears to be
well constructed. Photo 1 and 2 show the exterior and interior of one of the completed storage warehouses,
and Photo 3 shows the water well in operation.

Although the quality of construction appears to be good, the project was completed 243 days after the date of
completion required by the contract. The contractor attributed the delay to security concerns—including
threatened and actual Taliban violence, difficulties transporting needed equipment across the border into
Afghanistan, and difficulty getting experts on the installation and operation of the facility’s equipment to come
to Afghanistan. To spur contractor performance, USACE sent 26 letters to the contractor, many of them
expressing concerns regarding scheduling and delays in contractor performance. For example, on May 13,
2012, USACE sent the contractor a monthly progress evaluation report stating that construction activities in
progress were behind schedule and needed careful attention. At one point, USACE considered terminating the



Photo 1 - Warehouse Storage Exterior,                              Photo 2 - Warehouse Storage Interior, Including
Including Loading Dock                                             Cooling Equipment and Shelving




Source: RC-SW; September 4, 2013                                   Source: RC-SW; September 4, 2013


4U.S. military officials have told us that they will provide civilian access only to areas within a 1-hour round trip, using air
assets, of an advanced medical facility. This access area is referred to as the “oversight bubble.” SIGAR 14-4-SP, Oversight
Access Inquiry Letter to Department of Defense, Department of State and U.S. Agency for International Development,
October 10, 2013.



SIGAR 14-82-IP/Gereshk Storage Facility                                                                                  Page 2
contract for default, but instead assessed liquidated damages            Photo 3 - Water Well in Operation
of $223,317 to keep the pressure on the contractor to
complete the project.5
According to USACE documents, USACE was able to keep a
local national quality assurance inspector on-site for part of
the project to oversee the construction. In addition, USACE
engineers and quality assurance personnel made 23 site visits
during construction. According to the DD Form 1354,6 USACE
listed several construction deficiencies associated with the
storage facility including problems associated with (1)
installing and painting steel shelving in the cold storage
rooms, (2) testing and balancing documentation for operation
of the refrigeration system, (3) videotaped training on all
systems, and (4) delivering operations and maintenance
manuals and as-built drawings. RC-SW officials provided us
with photos showing that the contractor installed and painted
the steel shelving, and USACE provided photographs and
documents showing us that the contractor corrected the
remainder of the deficiencies.                                           Source: RC-SW; September 4, 2013


GERESHK FACILITY IS NOT BEING USED OR MAINTAINED

TFBSO officials told us that they realized in the project planning phase that the key to the project’s success
would be operation, maintenance, and control of the completed project by an Afghan business. In fall 2011,
after its 2010 approval of the project, TFBSO found a distribution and juice production company, Omaid Bahar,
LTD, which was interested in expanding its activities from Kabul into Helmand province. Although the TFBSO
discussed the Gereshk site with other investors, it determined that Omaid Bahar, LTD had the most
comprehensive plan for using the facility. The MoCI had planned to transfer property ownership to Omaid
Bahar, LTD, in August 2012. However, the company subsequently suffered extensive damage to its Kabul cold
storage facility, and the planned repair expenditures kept it from expanding its business in the Gereshk area.
In April 2014, TFBSO, RC-SW, and MoCI officials told us that the Gereshk Cold and Dry Storage Facility had
never been used and was not being maintained. TFBSO officials told us that several other Afghan investors
have expressed interest in the facility. However, final deals have never been reached. According to TFBSO
officials, the investors told them that the Afghan district governor was asking for money from the investors and
the construction contractor before leasing the property. MoCI officials confirmed that the facility is still not
being used, but stated that there are some businesses interested in the facility. Unfortunately, as of April
2014, MoCI had not identified a business willing to lease the facility. MoCI’s Deputy Minister told us that the
ministry is continuing to look for private sector investors to lease the facility.




5 FAR 52.211-12, as incorporated in the contract to build the Gereshk facility, states that “If the Contractor fails to
complete the work within the time specified in the contract, the Contractor shall pay liquidated damages to the Government
in the amount of $919.00 for each calendar day of delay until the work is completed or accepted.”
6DD Form 1354 is used in connection with the transfer of military real property between the military departments and
other government agencies.



SIGAR 14-82-IP/Gereshk Storage Facility                                                                            Page 3
CONCLUSION

The Gereshk Cold and Dry Storage Facility could have been a success story. Because Afghan quality assurance
personnel were on site for part of the project, multiple oversight visits were conducted by USACE engineers and
quality assurance personnel. Moreover, because USACE actively took steps to hold its contractor accountable,
the facility appears well built and ready for productive use. Such a facility would likely improve the ability of
local Afghan farmers to preserve fruits and vegetables for sale to national and international markets, which
could generate revenues far greater than selling their produce locally.
However, TFBSO has not achieved what it told us was the key to the project’s success—the operation,
maintenance, and control of the facility by an Afghan business. Although the failure by Omaid Bahar, LTD to
expand its operations was beyond TFBSO’s control, this potential investor was not identified until well after
TFBSO approved the project and USACE awarded the contract. MoCI continues to seek private sector investors
to lease the storage facility. And the greatest concern may revolve around insurgent activity in the Gereshk
area. Unless that concern can be overcome, the United States may face yet another situation where taxpayers’
money may have been wasted, in this case $2.89 million.


RECOMMENDATION

As a lesson learned for successfully commercializing future TFBSO investment projects, we recommend that
the Acting Under Secretary of Defense for Policy direct TFBSO to ensure that

    1. Before approving future investment projects of any kind, there are willing investor(s) capable of
       assuming ownership of and responsibility for maintaining constructed facilities; or, in the absence of
       investors, that the MoCI is willing and able to assume those responsibilities itself.


AGENCY COMMENTS

We provided a copy of the draft report to TFBSO, U.S. Central Command, USACE, and U.S. Forces-Afghanistan
for review and comment. TFBSO provided written comments that are reproduced in appendix II. U.S. Central
Command responded that the report was accurate and that it had no comments. USACE and U.S. Forces-
Afghanistan did not provide comments.
TFBSO partially concurred with our recommendation to ensure that there are willing investors before approving
investment projects. TFBSO stated that it identified Omaid Bahar LTD as a potential investor during the
construction phase and submitted the company’s name to MoCI for consideration. However, due to delays in
construction and MoCI’s decision not to approve an investor without a completed building, Omaid Bahar LTD
withdrew from the project. Nonetheless, we maintain that the identification of investors or the expressed
commitment of MoCI to assume ownership and responsibility for constructed facilities prior to investments will
reduce the risk of wasted funds resulting from completed but unused facilities. Indeed, TFBSO acknowledged
that until the MoCI comes to agreeable terms with an investor, the Gereshk facility will remain unoccupied—a
situation that may be avoided in the future through the full implementation of our recommendation.
Nevertheless, TFBSO noted that it has been incorporating lessons learned, including the recommendation in
this report, for the last several years. TFBSO also noted that, as it transitions projects and shuts down its
organization, it will include this recommendation and other lessons learned for future consideration. TFBSO’s
comments are reproduced in appendix II.




SIGAR 14-82-IP/Gereshk Storage Facility                                                                   Page 4
APPENDIX I - SCOPE AND METHODOLOGY
This report provides the inspection results of the Gereshk Cold and Dry Storage Facility that was commissioned
by the Task Force for Business and Stability Operations (TFBSO) in Helmand province, Afghanistan. To
determine whether construction was completed in accordance with contract requirements and applicable
construction standards and the facility was being used as intended and maintained, we

       reviewed relevant contract documents that were available to understand project requirements and
        contract administration;

       interviewed cognizant Afghan officials concerning the operation and maintenance of the completed
        facility; and

       interviewed TFBSO and Regional Command–Southwest officials concerning the operation and
        maintenance of the completed facility.

SIGAR conducted its inspection work in Kabul, Afghanistan, and in Helmand province from December 2013
through June 2014. We were unable to make a site visit to the Gereshk Cold and Dry Storage Facility because
of security concerns, but were able to review an extensive collection of contract and management
documentation, including photos and site visit reports. Our work was performed in accordance with the Quality
Standards for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and
Efficiency. The engineering assessment was conducted by professional engineers in accordance with the
National Society of Professional Engineers’ Code of Ethics for Engineers. We did not rely on computer-
processed data in conducting this inspection. However, we considered the impact of compliance with laws and
fraud risk.

We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. SIGAR conducted this inspection under the authority of Public Law No. 110-181, as
amended, and the Inspector General Act of 1978, as amended.




SIGAR 14-82-IP/Gereshk Storage Facility                                                                Page 5
APPENDIX II - COMMENTS FROM THE TASK FORCE FOR BUSINESS AND
STABILITY OPERATIONS




SIGAR 14-82-IP/Gereshk Storage Facility                       Page 6
SIGAR 14-82-IP/Gereshk Storage Facility   Page 7
APPENDIX III - ACKNOWLEDGMENTS

Scott Harmon, Senior Inspections Manager
Brian Flynn, Senior Audit Manager
Angelina Johnston, Senior Auditor
Ron Snyder, P.E., Engineer




SIGAR 14-82-IP/Gereshk Storage Facility    Page 8
                                      This inspection report was conducted
                                        under project code SIGAR-I-013.




SIGAR 14-82-IP/Gereshk Storage Facility                                      Page 9
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
To Report Fraud, Waste, and    hotline:
      Abuse in Afghanistan                 Web: www.sigar.mil/fraud
   Reconstruction Programs                 Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
                                           Phone: 703-545-5974
              Public Affairs               Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
